                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          We were informed that a University administrator' contacted N S F ~about possibly amending an
          NSF award3to pay a another scientist not on the award because the other scientist thought some
          of his ideas had been used by the subject, a faculty member at another of the University's
          satellite campuses, in the NSF award. We contacted the University administrator, who discussed
          many communication problems within the University system, none of which were problems the
          OIG would consider. Further, he provided nothing substantive concerning the alleged theft of an


          This case is closed and no further action will be taken.




I'
 NSF OIG Fo~m2 (1 1/02)
